HHS/OIG, Audit - "Missouri Medicaid Payments for Skilled Professional Medical Personnel," (A-07-05-03066)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Missouri Medicaid Payments for Skilled Professional
Medical Personnel," (A-07-05-03066)
August 10, 2006
Complete
Text of Report is available in PDF format (1.11 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if Missouri's Department of Social Services,
Division of Medical Services (State agency) properly claimed payments for skilled professional
medical personnel at the enhanced Federal funding rate for fiscal year (FY) 2003.  We
found that the State agency did not properly claim payments for 67 skilled professional
medical personnel at the enhanced Federal funding rate for FY 2003.
Specifically, the State agency claimed costs for (1) personnel in positions that did not
require medical expertise, (2) personnel who did not meet the educational or licensure requirements,
(3) personnel whose staff time was split between different functions, and (4) directly supporting
staff who either were not supervised by skilled professional medical personnel or did not
meet the definition of directly supporting staff.  The State agency also improperly
claimed travel expenditures at the enhanced Federal funding rate.
We recommended the State agency:  (1)  refund $525,249 to the Federal Government,
(2) develop and implement policies and procedures to more closely monitor payments for skilled
professional medical personnel and directly supporting staff, and (3) develop a CMS‑approved
methodology to allocate costs for personnel whose staff time is split between different functions.  The
State agency stated that it "disagree[d] with the recommendations in the draft report
that [it] do[es] not believe to be consistent with Section 1903(a)(2) of the Social Security
Act or its implementing regulations."  The State agency asserted that one employee
cited as not meeting the education requirements was a registered nurse, but it agreed that
three other employees did not meet the education requirements.  It also agreed that
travel costs should not have been claimed at the enhanced rate for three employees.